Please read this information carefully. This is your copy of the VISA Platinum and Visa Platinum Rewards Credit Card Agreement and
Regulation “Z” Disclosures made pursuant to the Truth in Lending Act.
Introduction. This Agreement covers this VISA Platinum and VISA Platinum
Rewards Credit Card issued by iQ Credit Union. In this Agreement the words “you,”
“your,” “yours,” “applicant,” and “Borrowers” mean any person who signs the application
for this Account, any joint obligor, guarantor, authorized user, or the person whose
name is embossed on the Card. The words “we,” “us,” “our,” and “Lender” means iQ
Credit Union. The word “Card” means any one or more credit cards issued under this
Account. If you sign an application for this Account or sign or use any Card or PIN, or 7.
allow others to use the Card or PIN, you and they will have accepted this Agreement
just as if you and they signed it, and you and they, jointly and severally, will be bound by
the following terms and conditions which will govern this Account.

1.

You Promise to Pay. You promise to pay us in United States dollars, by cash,
check or money order as provided in this Agreement, all such amounts, plus Interest
Charges, which arise from use of the Card or Account by you or any other person, and
to be jointly and severally liable with such a person, unless such other person does not
have actual, implied, or apparent authority for such use, and you received no benefit
from the use. This includes any loan requests for credit card purchases, payments to a
third party, or for deposit to a deposit, share, or share draft account of yours, or any coapplicant at the Credit Union. You agree to pay advances requested by any co-applicant
the same as if you asked for the loan and it was paid to you.
2.

3. Purchases, Balance Transfers, and Cash Advances. You must sign the Card to
use it. Once you have signed the Card, you can use it to buy or lease goods or services,
wherever the Card is honored, up to the full amount of your credit line. You also may
use your Account and Card to get cash advances from us or participating financial
institutions. You may use your Card and Personal Identification Number (“PIN”) to obtain
cash advances at automated teller machines (ATM’s) designated with the Visa
Network. The periodic statement will identify the merchant or financial institution at
which transactions were made, but sales, cash advances, credit or other slips cannot be
returned with the statement. We may impose a reasonable charge for photocopies of
slips you may request.

Convenience Checks. If we approve, you may obtain advances under your Account
by writing preprinted loan drafts (“convenience checks”) that we supply to you. Your use
of convenience checks will be shown as credit advances on your periodic statement. We
may not honor the convenience check if it is postdated, payment of the check will
exceed your credit limit, a convenience check is signed by a person without authorized
access, the amount of the check is less than the minimum required amount, your
Account has been terminated or suspended, or any convenience checks have been
reported lost or stolen. You may stop payment on a convenience check if you provide us
with the exact information describing the convenience check. The stop payment will be
effective if the Credit Union receives the order in time for the Credit Union to act upon
the order. If you give us incorrect information, we will not be responsible for failing to
stop payment. You understand there may be a charge for convenience check printing
and charges for stop payment requests, returned items, check copies, and other fees or
costs we incur in handling your convenience checks. Our liability for a wrongful dishonor
is limited to your actual losses; however, a dishonor for the reasons stated above is not
a wrongful dishonor.

4.

Transaction Limits. The limits apply to the combined transactions for the day on all
cards on the account. You may not conduct more than 20 “signature based”
transactions per day, and may not conduct signature based transactions that exceed a
total of $5,000 per day. (A “signature based” transaction is one that does not require you
to use your Personal Identification Number to complete the transaction.). You may not

5.

receive more than $500.00 from ATMs per day. You must contact the Credit Union for
advance approval if you wish to conduct transactions that would exceed these limits.
For the purpose of these limits, a day begins at 12:00 a.m. and ends at 11:59 p.m.
Rebate Program. VISA Platinum Rewards credit card only. You may earn a 1%
cash rebate on your account if you meet the following requirements:
6.

Cash Rebate on Net Purchases. You may earn a 1% cash rebate on net purchases
(purchases less returns for credit) made during the rebate period in which the net
purchases posted to your account. The cash rebate will be calculated on cumulative net
purchases, not including any balance transfers or cash advances, posted to your
account for the prior rebate period. To illustrate, let us assume during the first rebate
period of the year (January –March) your total net purchases equal $3500. In this
example, we would multiply $3500 by 1% which would equal a cash rebate of $35.
There are four rebate periods in each calendar year. January 1 through March 31, April
1 through June 30, July 1 through September 30, and October 1 through December 31.
The cash rebate for the prior rebate period will be credited to your checking or savings
account by the 15th day of the month following the end of the prior rebate period. Your
account must remain open and in good standing order to receive the cash rebate. If at
any time your account is assessed a late fee, is closed or is in default, you will forfeit all
cash rebates accrued through the calendar quarter in which your account was closed, or
the delinquency or default occurred. The terms and conditions of this rebate program
may be changed or cancelled at any time and for any reason without notice.
Minimum Periodic Payment. Minimum payment will be the greater of $25 or 3% of
any new balance, rounded to the nearest dollar, plus the greater of any amount past
due or any amount in excess of your credit limit. Payments received at the mailing
address shown on your statement on any business day by 5:00 P.M. Pacific Time will
be credited to your Account as of that date; payments received by mail at that address
after 5:00 P.M. Pacific Time, or on a weekend or federal holiday will be posted to your
Account as of the next business day. Payment crediting to your Account may be
delayed up to five (5) days if your payment is received by mail at any other address or
not accompanied by the remittance portion of your Account statement.
8.

9. Periodic Statements. If, at the end of any monthly periodic interval which we may
determine the “Billing Cycle,” you have an outstanding undisputed debit or credit
balance in your Account, or if there is any Interest Charge imposed with respect to your
Account, we will send you a periodic statement regarding the Account for that Billing
Cycle. The statement will show any purchases, balance transfers, cash advances,
payments, and credits made to your Account during the Billing Cycle, as well as your
“New Balance,” any Interest Charge, any late charge, or other charges. You may elect
to receive your statement information electronically. Your statement also will identify the
“Required Payment Due” you must make for that Billing Cycle and the date it is due.
You may pay in full for all your purchases, balance transfers, and cash advances each
month or you may repay in monthly installments. You agree to retain for statement
verification copies of transaction slips resulting from each purchase, each advance, and
other transaction on your Account. Unless you notify us of a billing error as described
below, you accept your monthly statement as an accurate statement of your Account
with us.
10. Credit Line. This Agreement will constitute a revolving line of credit, and we will
advise you of the amount of your credit line. That amount will be the maximum amount
you may have outstanding at any one time. You agree not to attempt to obtain more
credit than the amount of your credit line. However, if you temporarily exceed your credit

line, you agree to repay the excess immediately, even if we have not yet billed you.
Obtaining such credit does not increase your credit line. We retain the right to increase
or decrease your credit line at any time for any reason. Any increase or reduction on the
limit of your credit line will be shown on your monthly statement or by separate notice
together with any other changes in the applicable minimum monthly payments.
Circumstances Under Which an Interest Charge Will Be Imposed. The total
outstanding balance of purchases, balance transfers, and cash advances in the Account
on the closing date of a Billing Cycle, including any Interest Charge will be shown on the
Periodic Statement for that billing cycle as the “New Balance.”

11.

Purchases. An Interest Charge will be imposed on the unpaid portion of purchases
included in the New Balance when your New Balance is not paid in full by the due
date shown on your periodic statement. This “grace period” allows you to avoid an
Interest Charge on purchases for a billing cycle. However, if you do not pay the New
Balance for purchases within the grace period, your Interest Charge will accrue on
any unpaid purchase transactions from the first day of the billing cycle.
b. Balance Transfers and Cash Advances. An Interest Charge will be imposed on cash
advances from the date each balance transfer or cash advance is made. There is no
time period within which to pay to avoid a periodic Interest Charge on cash
advances. In addition, a cash advance fee (Interest Charge) equal to 2% of the cash
advance (or $5.00, whichever is greater) will be applied to each cash advance.
a.

Method Used to Determine the Balance on Which the Interest Charge May Be
Computed. We figure the interest charge on your Account by applying the Periodic
Rate to the “Average Daily Balance” of purchases, balance transfers, and cash
advances for your Account. To get the “Average Daily Balance” we take the ending
balance of your account the previous day, add any new purchases, balance transfers, or
cash advances, and subtract any payments or credits, unpaid interest or other finance
charges and unpaid late charges. This gives us the daily balance. Then, we add up all
the daily balances for the billing cycle and divide the total by the number of days in the
billing cycle. This gives us the “Average Daily Balance.”

12.

13. Method of Determining the Amount of the Interest Charge. We figure the
Interest Charge for purchases, balance transfers, and cash advances by multiplying
the Average Daily Balance of purchases, balance transfers, and cash advances by
the number of days in the Billing cycle and then by the applicable periodic rate. The
Interest Charge for any Billing Cycle will be the sum of the Interest Charge for
purchases and the Interest Charge for cash advances. However, the portion of your
balance that is the result of purchases has a different treatment. If you paid the entire
New Balance shown on the previous monthly statement by the payment due date
shown on that statement, the portion of the New Balance shown on the current
statement that is attributable to purchases that is paid by the payment due date
shown on that statement will be excluded from the calculation of the balance each
day.

For this purpose, payments will be applied first to unpaid Interest and other Finance
Charges, then to unpaid purchases, balance transfers, and cash advances from prior
billing statements (starting with the portion of the balance subject to the highest rate),
then to purchases, balance transfers, and cash advances during that Billing Cycle
(starting with the portion of the balance subject to the highest rate).
14. Periodic Rate and Corresponding Annual Percentage Rate. Rates are variable
and subject to change. Your Annual Percentage Rate (APR) will be calculated by
adding a margin to the Prime Rate as published in the Wall Street Journal as of the

Wednesday immediately preceding the billing cycle. The margin applicable to your
account is provided in your Account Disclosures, and is based on your credit score.
The Credit Union may adjust the rate once each month effective the first day of the
billing cycle. APR changes will reflect on the following month’s statement. The Annual
Percentage Rate includes only interest and no other costs. The Annual Percentage
Rate is divided by 365 to produce the daily Periodic Rate. The Periodic Rate and
Annual Percentage Rate that will apply to your Account will be disclosed on the notice
that accompanies (and is a part of) this Agreement when you open your Account.
15. Conditions Under Which Other Charges May Be Imposed. We may impose the
following fees and charges on your Account:

There is no annual fee.
Cash Advance Fee. The fee for a cash advance is the greater of 2.00% of the
cash advance amount or $5.00.
Late Fee. A late fee of up to $25 will be imposed when any payment is 15 days past
due.
Miscellaneous Photocopying. If you request a copy of a sales draft or other
document, we may charge your account $5.00 per copy and $35.00 per hour
research. These charges cover the costs of locating, copying and delivering the
documents to you. If a request is related to a billing error and an error is found, we
will reverse any photocopying charges and research fees.
Replacement Card Charge. A $5.00 charge per card will be imposed for each
replacement card you request, regardless of the reason.
Convenience Check Stop Payment. A $25.00 charge will be imposed from each
convenience check stop payment request (includes verbal requests)
ATM Surcharges. If you use an ATM that is not operated by us, you may be
charged an ATM surcharge by the ATM operator or an ATM network utilized for
such a transaction. The ATM surcharge will be charged to your account if you
elect to complete the transaction.
Fees and Costs. We may pay someone else to help collect your Account if you do
not pay. You agree to pay us all costs to collect your Account, including court
costs, reasonable attorney fees and costs, and collection agency costs, if
applicable, whether or not there is a lawsuit, and fees on any appeal and fees for
bankruptcy proceedings, appeals, and any post judgment collection services, if
applicable. These fees and costs may be added to your loan balance and bear
interest at the Annual Percentage Rate applicable at that time.
Foreign Transaction Fee: Purchases made in foreign countries will be billed to you
in U.S. dollars. The currency conversion rate for international transactions as
established by VISA International, Inc. is a rate selected by VISA from the range
of rates available in wholesale currency markets for the applicable central
processing date, which rate may vary from the rate VISA itself receives, or the
government mandated rate in effect for the applicable central processing date. In
addition, you will be charged a Foreign Transaction Fee of up to 1% of the
transaction amount for any card transaction made in a foreign country.

a.
b.
c.
d.

e.
f.
g.

h.

i.

Security Interest. To secure your Account, you grant us a purchase money
security interest under the Uniform Commercial Code in any goods you purchase
through your Account, as allowed by law. If you default, we will have the right to
recover any of these goods which have not been paid for through application of your
payments in the manner described in Section 12. Except for real estate loans or
loans secured by your dwelling, collateral securing other loans with us also may be
used to secure this Account.

16.

8/2018
3/2018

d

Conditions of Card Use. The use of your Card and Account are subject to the
following conditions:

17.

a.

b.

c.

d.

e.

Ownership of Cards. Any Card or other credit instrument or device which we
supply to you is our property and must be returned to us, or to any person whom
we authorize to act as our agent, or to any person who is authorized to honor the
Card, immediately according to instructions. The Card may be repossessed at
any time in our sole discretion without demand or notice. You cannot transfer
your Card or Account to another person. You may not use the Card for any
illegal or unlawful transactions, and we may decline to authorize any transaction
that we believe poses an undue risk of illegality or unlawfulness.
Honoring the Card. Neither we nor merchants authorized to honor the Card will
be responsible for the failure or refusal to honor the Card or any other credit
instrument or device we supply to you. If a merchant agrees to give you a refund
or adjustment, you agree to accept a credit to your Account in lieu of a cash
refund.
Notices and Payments. All notices will be sent to your address as shown in the
application. You agree to advise us promptly if you change your mailing address.
All payments should be mailed to us at the remittance address shown on your
monthly statements. Payments received at that address will be credited to your
Account as of the date received. Payments mailed must reach our office by the
due date. Where the due date falls on a weekend or holiday, payments are due
the last working day prior to the due date. We can accept late payments or
partial payments, or checks, drafts, application. You agree to advise us promptly
if you change your mailing address. All payments should be mailed to us at the
remittance address shown on your monthly statements. Payments received at
that address will be credited to your Account as of the date received. Payments
mailed must reach our office by the due date. Where the due date falls on a
weekend or holiday, payments are due the last working day prior to the due
date. We can accept late payments or partial payments, or checks, drafts, and
money orders marked “payment in full,” without prejudice to our rights under this
Agreement, which are hereby explicitly reserved.
Personal Identification Number. We may issue you a Personal Identification
Number (“PIN”) for using your Card to obtain cash advances at automatic teller
machines (“ATMs”). These numbers are issued to you for your security
purposes. These numbers are confidential and should not be disclosed to third
parties. You are responsible for safekeeping your PIN. You agree not to disclose
or otherwise make available your PIN to anyone not authorized to sign on your
Accounts. To keep your Account secure, please do not write your PIN on your
Card or keep it in the same place as your Card.
If any loan account which you are obligated is 28 days or more days past due,
we may refuse to process your electronic funds transfer transactions (except
ACH transactions)

Default. You will be in default under this Agreement if any of the following occur:
(a) Any minimum payment is not made when due; (b) You become insolvent,
bankrupt, or you die; (c) You violate any part of this Agreement, or any other
agreement with us; or (d) if we reasonably deem ourselves insecure on your credit
line. We will notify you in writing of any such action as soon as practical if it occurs.
Upon default, we may declare the entire unpaid balance immediately due and
payable, and you agree to pay that amount plus any attorney’s fees and costs incurred
by us. We can delay enforcing any right under this Agreement without losing that right
or any other right.

18.

19. Credit Information/Financial Statements. You authorize us to release
information to others (e.g., credit bureaus, merchants, and other financial institutions)
regarding the status and history of your credit line. You agree to provide us, at any
time we deem necessary, with a current financial statement and/or a new credit
application upon request. You authorize us to make or have made any credit,
employment, and/or investigative inquiry we deem appropriate for the extension of

credit, account maintenance, or collection of amounts owing on the Account directly or
through a credit reporting agency.
Loss or Theft of VISA Credit Card - Liability for Unauthorized Transactions.
You agree to notify us immediately, orally, or in writing, at iQ Credit Union, P.O. Box
1846, Vancouver, Washington 98668-1846, or telephone (360) 695-3441, or (800)
247-4364 of the loss, of the theft, or the use without your permission of any Card or
other credit instrument or device which we supply to you. After normal Credit Union
hours and on weekends and holidays, phone (800) 247-4364 and then notify the
Credit Union at the first opportunity during business hours. If you notify us of your lost
or stolen Card, you will not be liable for any losses. This liability exclusion will apply
provided you were not grossly negligent or fraudulent in handling your Card, otherwise
your liability for unauthorized VISA Credit Card transactions may be up to $50.00.
20.

21. Address. You agree to advise us promptly if you change your mailing address. We
can accept address corrections received from the U.S. Postal Service or from any
authorized user. All written notices and statement from us to you will be sent to your
address as it appears on our records. Written notices and inquiries from you must be
sent to us at:
iQ Credit Union
P.O. Box 1846 Vancouver, WA 98668-1846
22. Termination. Your eligibility for this credit line is determined by our loan policy and
may be terminated at our sole discretion, without demand or notice. You may close
your credit line at any time by notifying us in writing and returning all Cards cut in half.
If you terminate this Agreement or if we terminate or suspend your credit privileges,
the provisions of this Agreement and your liability hereunder shall otherwise remain in
full force and effect until you have paid us all sums due us under this Agreement and
returned all Cards.

What To Do If You Think You Find a Mistake On Your Statement. If you think
there is an error on your statement, write to us at the address listed above. In your
letter, give us the following information:
23.

• Your name and account number.
• The dollar amount of the suspected error.
• If you think there is an error on your bill, describe what you believe is wrong and
why you believe it is a mistake.
You must contact us within 60 days after the error appeared on your statement. You
must notify us of any potential errors in writing. You may call us, but if you do we are
not required to investigate any potential errors and you may have to pay the amount in
question. While we investigate whether or not there has been an error, the following
are true:
• We cannot try to collect the amount in question, or report you as delinquent on
that amount.
• The charge in question may remain on your statement, and we may continue to
charge you interest on that amount. But, if we determine that we made a mistake,
you will not have to pay the amount in question or any interest or other fees
related to that amount.
• While you do not have to pay the amount in question, you are responsible for the
remainder of your balance.
• We can apply any unpaid amount against your credit limit.
Your Rights if you are dissatisfied with your credit card purchases. If you are
dissatisfied with the goods or services that you have purchased with your credit card,
and you have tried in good faith to correct the problem with the merchant, you may
have the right not to pay the remaining amount due on the purchase. To use this right,
all of the following must be true:
• The purchase must have been made in your home state or within 100 miles of
your current mailing address, and the purchase price must have been more than
8/2018

$50. (Note: Neither of these is necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that sold you the
goods or services.)
• You must have used your credit card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses your credit card
account do not qualify.
• You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase,
contact us in writing at the address listed above:
While we investigate, the same rules apply to the disputed amount as discussed
above. After we finish our investigation, we will tell you our decision. At that point, if we
think you owe an amount and you do not pay we may report you as delinquent.
24. Overdraft Privilege. You agree that if, pursuant to any overdraft privilege on a
Credit Union Share Draft Account that you have agreed to, there is an overdraft of
Your Share Draft Account, the amount of overdraft will be added to the outstanding
balance on Your Visa Credit Card Account, subject to the finance charge provisions
set forth in “INTEREST AND FINANCE CHARGES” as described for cash advances,
and will be subject to all terms and conditions of this Agreement. The Visa Credit Card
Account must be current and not over the credit limit for funds to transfer to the Share
Draft Account. Overdrafts are not allowed for the purpose of making loan payments,
including Visa Credit Card payments, at the Credit Union, ATM or in-branch teller cash
withdrawals. The Share Draft Account referred to herein is also subject to a separate
agreement between You and the Credit Union. Where the terms of any other
agreement between You and the Credit Union conflict with the terms of this
Agreement, the terms of this Agreement will control.
25. Severability. If any provision of this Agreement is held invalid, all provisions that
are severable from the invalid provision remain in effect.

Acknowledgment and Amendments. You understand and agree to the terms
and conditions in this Agreement and the Fair Credit Billing Notice. You acknowledge
that you have received a copy of this Agreement and Disclosure and the Fair Credit
Billing Notice. We reserve the right to amend the terms of this Agreement at any time
as permitted by and subject to any limitations and notice requirements of applicable
law.

26.

27. Governing Law. This Agreement will not take effect until it is approved by us. This
Agreement shall be governed by the laws of the State of Washington.

Visa Platinum and
VISA Platinum
Rewards Credit
Card

Agreement and
Regulation “Z”
Disclosures

Call the Credit Union: 360-695-3441
Outside the area: 800-247-4364
Visit us at: iQcu.com

3/2018
M-125419

